October 13, 2021
By Electronic Filing and Overnight Delivery
Scott Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
Re:

Rodney Reed v. Bryan Goertz et al., No. 21-442

Dear Mr. Harris,
A response in this death penalty case is due October 22, 2021. Respondent
respectfully requests a thirty-day extension of the present deadline, up to and
including November 21, 2021. This is Respondent’s first request for an extension in
this case. The extension request is not sought for an improper purpose, including
harassment or unnecessary delay. Rather, the Respondent requires additional time
because counsel of record for the Respondent, Matthew Ottoway, has been out of the
country since September 24, 2021, and will not return until October 21, 2021, the day
before the Respondent’s brief is due. Consequently, Mr. Ottoway has been unable to
work on the instant case, and additional time is needed for the Respondent to file a
brief in opposition. The undersigned conferred with Petitioner’s counsel, Parker
Rider-Longmaid, who stated that he is not opposed to this requested extension. A
copy of this letter will be sent to Mr. Rider-Longmaid. Thank you for your
consideration.
Respectfully submitted,

Erich Dryden
Assistant Attorney General
CC:

Parker Rider-Longmaid
Skadden, Arps, Slate, Meagher, & Flom LLP
1440 New York Ave. NW
Washington, D.C. 20005
202-371-7000
priderlo@skadden.com
P os t Of fic e Box 12548 , Aust in , Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .go v

